IN THE SUPREME COURT OF THE UNITED STATES

SALGADO, MILADIS
Petitioner
vs.

No: 19-0659

USA
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
December 05, 2019
cc:
See Attached List

DAN ALBAN
INSTITUTE FOR JUSTICE
901 N. GLEBE ROAD
SUITE 900
ARLINGTON, VA 22203
SAMUEL G. MACROBERTS
KANSAS JUSTICE INSTITUTE
12980 METCALF AVENUE
SUITE 130
OVERLAND PARK, KS 66213
JUSTIN MARC PEARSON
INSTITUTE FOR JUSTICE
2S. BISCAYNE BOULEVARD
SUITE 3180
MIAMI, FL 33131
JOSHUA S. LIPSHUTZ
GIBSON, DUNN & CRUTCHER LLP
1050 CONNECTICUT AVENUE, NW.
WASHINGTON, DC 20036

